State of California
DEPARTMENT OF JUSTICE

XAVIER BECERRA
Attorney General

1300 I STREET
SACRAMENTO, CA 95814

Telephone: (9 16) 210-6269
E-Mail: Sam.Siegel@doj.ca.gov

February 3, 2020

Via Electronic Filing System and Commercial Courier
Hon. Scott S. Han-is, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

United States House ofRepresentatives v. Texas, et al. , No. 19-841

Dear Mr. Hams:
I write on behalf of the States that intervened as defendants in the above-captioned case
in the courts below, and are listed in the petition as respondents. For the reasons stated in the
petition in No. 19-840, the intervening States acquiesce in the petition for a writ of certiorari in
this case. Because our arguments in support of granting review of the Fifth Circuit's judgment
are comprehensively made in our briefs in No. 19-840, we do not intend to file any further
response to the petition in this case. See Sup. Ct. R. 12.6.
Sincerely,

~~
SAMUEL P. SIEGEL
Deputy Solicitor General

For

XAVIER BECERRA
Attorney General

February 3, 2020
Page 2
cc:

Douglas N. Letter
General Counsel
U.S. House of Representatives
Noel J. Francisco
Solicitor General
United States Department of Justice
Kyle D. Hawkins
Solicitor General
Office of the Attorney General
State of Texas
Robert Henneke
Texas Public Policy Foundation
Center for the American Future

